No.

20-2.11
tlj£

supreme Court, U.S'
FILED

^npxtmz (Enitri of t\\z ffinitzb

AUG 1 9 2020
OFFICE OF THE CLERK-

Richard Balter,
Petitioner,
v.

United States of America,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

RICHARD BALTER
Pro se
Reg. No. 17432-050
FCI Petersburg Medium
P.O. Box 1000
Petersburg, Virginia 23804
No Phone
Petitionei

RECEIVED
AUG 2 4 202(1

QUESTION PRESENTED

Does the Virginia Medical Malpractice Act’s requirement that a plaintiff
possess a written opinion signed by an expert witness that, based upon a reasonable
understanding of the facts, the defendant for whom service of process has been
requested deviated from the applicable standard of care and the deviation was a
proximate cause of the injuries claimed apply to a medical malpractice claim brought
under the Federal Tort Claims Act?

1

PARTIES TO THE PROCEEDING

Petitioner Richard Balter and the United States of America are parties to the
proceeding.

n

TABLE OF CONTENTS

Opinions Below

1

Jurisdiction

2

Constitutional and Statutory
Provisions Involved

2

Statement of the Case

3

Reason for Granting this
Petition

6

Conclusion

20

Appendix A

Memorandum Opinion of U.S. District Court for
Eastern District of Virginia granting summary
judgment to Defendant

Appendix B

Opinion of U.S. Court of Appeals for the 4th Circuit
affirming Memorandum Opinion granting
summary judgment to Defendant

Appendix C

Order of U.S. Court of Appeals for the 4th Circuit
denying rehearing

Appendix D

Rules and Statutory Provisions

m

TABLE OF AUTHORITIES

Table of Cases

Abbas v. Foreign Policy Group, LLC, 783 F.3d 1328
(D.C.Cir. 2015)

18, 21

Ashcroft v. Iqbal, 556 U.S. 662, 684 (2009)

18

Balter v. United States, Case No. I:17cvll88 (E.D.Va.,
March 27, 2019), 2019 U.S. Dist. LEXIS 52544,
2019 WL 1394368

2, 5, 13

Balter v. United States, 788 Fed.Appx. 245
(4th Cir., Dec. 23, 2019)

2, 13-14

Balter v. United States, 2020 U.S. App. LEXIS 9922
(4th Cir., Mar. 23, 2020)

2

Bell Atlantic Corp. v. Twombly, 550 U.S. 544, (2007)

12, 17

Bilenky v. Ryobi Technologies Inc., Case No. 2:13-cv-345
(E.D.Va. Jan. 29, 2015), 2015 WL 403979, 2015
U.S.Dist. LEXIS 10455

20

Burlington Northern R.R. Co. v. Woods, 480 U.S. 1 (1987)

9

Carbone v. Cable News Network, Inc., 910 F.3d 1345
(11th Cir. 2018)

10, 11, 18
21

Chamberlain v. Giampapa, 210 F.3d 154 (3d Cir. 2000)

12

Cooke v. Jackson National Life Ins. Co., 919 F.3d 1024
(7th Cir. 2019)

9

Farzana K. v. Indiana Department of Education,
473 F.3d 703 (7th Cir. 2007)

19

Follenfant v. Rogers, 359 F.2d 30 (5th Cir. 1966)

19

IV

Gallivan v. United States, 943 F.3d 291
(6th Cir., Nov. 7, 2019)

6, 8, 10, 11-12,
13, 14

Hanna v. Plumer, 380 U.S. 460 (1965)

14, 20-21

Hannah v. United States, 523 F.3d 597 (5th Cir. 2008)

7

Indian Towing Co. v. United States, 350 U.S. 61 (1955)

16

Keating v. Smith, 492 Fed.Appx 707 (8th Cir. 2012)

13

Klocke v. Watson, 936 F.3d 240 (5th Cir. 2019)

12

Kornberg v. United States, 692 Fed.Appx 468
(9th Cir. 2017)

9

Leatherman v. Tarrant Cty. Narcotics Intelligence &
Coordination Unit, 507 U.S. 163 (1993)

12, 17

Liebsack_v. United States, 731 F.3d 850 (9th Cir. 2013)

7

Liggon-Redding v. Estate of Sugarman, 659 F.3d 258
(3d Cir. 2011)

12

Littlepaige v. United States, 528 Fed.Appx. 289
(4th Cir. 2013)

13

Mackovich v. United States, 630 F.3d 1134
(8th Cir. 2011)

13

Massey v. United States, 312 F.3d 272 (7th Cir. 2002)

7

Majestic Bldg. Maint., Inc. v. Huntington Bancshares Inc.
864 F.3d 455 (6th Cir. 2017)

12

Mayer v. Gary Partners & Co., 29 F.3d 330 (7th Cir. 1994)

10

Mississippi Publ. Co. u. Murphree, 326 U.S. 438 (1946)

21

Molzofv. United States, 502 U.S. 301 (1992)

7

Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 142 (1984)

6

v

Richards v. United States, 369 U.S. 1, 6 (1962)

6

Royalty Network, Inc. v. Harris, 756 F.3d 1351
(11th Cir. 2014)

19, 21

Shady Grove Orthopedic Assoc., P.A. u. Allstate
Ins. Co., 559 U.S. 393 (2010)

9, 11-12, 13,
15, 18, 20-21

Sibbach v. Wilson, 312 U.S. 1 (1941)

20-21

Sosa v. Alvarez-Machain, 542 U.S. 692, 700 (2004)

7

Starns v. United States, 923 F.2d 34 (4th Cir. 1991)

5

Stewart Organization, Inc. v. Ricoh Corp., 487 U.S. 22
(1988)

15

Trierweiler v. Croxton & Trench Holding Corp.,
90 F.3d 1523 (10th Cir. 1996)

13

United States v. Aetna Casualty & Surety Co.,
338 U.S. 366 (1949)

16

United States v. Cundiff, 559 F.3d 200 (6th Cir. 2009)

20

United States v. Kwai Fun Wong, 575 U.S. 402 (2015)

16

United States v. Yellow Cab Co., 340 U.S. 543 (1951)

14

Walker v. Armco Steel Corp., 446 U.S. 740 (1980)

10

Young v. United States, 942 F.3d 349 (7th Cir. 2019),
reh’g denied, 2019 U.S. App. LEXIS 38746
(Dec. 30, 2019), petition for writ of certiorari
pending, Case No. 19-8587

5-6, 8, 9-10,
13, 14

Table of Statutes and Rules
28 U.S.C. § 1254(1)

2

F.R.Civ.P. 1

18

F.R.Civ.P. Rule 8(a)

10, 11, 12, 17, 18

F.R.Civ.P. Rule 9(b)

12, 17, 18

vi

F.R.Civ.P. Rule 11(a)

19, 20, 21

F.R.Civ.P. Rule 12(b)(6)

11, 17, 18

F.R.Civ.P. Rule 23
Federal Tort Claims Act, 28 U.S.C.
Pt.VI Ch.171

12
passim

28 U.S.C. § 1346(b)(1)

5, 7, 16

28 U.S.C. § 1915

12

28 U.S.C. § 2674
Ohio Civ.R. 10(D)(2)

6, 14

Rules Enabling Act, 28 U.S.C. § 2072

15, 20

Virginia Medical Malpractice Act,
§§ 8.01-581.1, et seq.

passim

Va. Code Ann. § 8.01-20.1 (2013)

4, 5, 13, 17, 18, 19

10-11

Table of Other Authorities
Christine Funk, Affidavits of Merit in Medical
1981) Malpractice Cases (Expert Institute,
June 23, 2020),

8

History of the World, Part I (20th Century Fox,
1981)

7

Nicholas Bazemore, Does Your Doctor Have
Malpractice Claims'? How To Find Out
(Forbes, April 19, 2016),

7

United States Attorneys Annual Statistical Report
- Fiscal Year 2019 (Dept, of Justice)

7

Jeffrey A. Parness & Amy Leonetti, Expert
Opinion Pleading: Any Merit to Special
Certificates of Merit?, 1997 BYUL. REV. 537

16

vn

PETITION FOR A WRIT OF CERTIORARI

Petitioner Richard Balter respectfully prays that a writ of certiorari be issued
to the United States Court of Appeals for the Fourth Circuit, so that this Court may
review the judgment below.
OPINIONS BELOW
This matter seeks discretionary review of the grant of summary judgment to
the defendant by the United States District Court for the Eastern District of Virginia,
and the United States Court of Appeals for the Fourth Circuit opinion affirming the
District Court’s summary judgment grant. The District Court ruled that Plaintiffs
medical malpractice claim was subject to dismissal because the Virginia Medical
Malpractice Act (“VMMA”) requires that by the time he or she effects service of
process on a defendant, a plaintiff possess a written opinion signed by an expert
witness that - based upon a reasonable understanding of the facts - the defendant
for whom service of process has been requested deviated from the applicable standard
of care, and that the deviation was a proximate cause of the injuries claimed apply to
a medical malpractice claim brought under the Federal Tort Claims Act (“FTCA”).
Plaintiff did not possess such an opinion, but he maintains that the VMMA’s

1

requirement is inapplicable to a claim brought pursuant to the Federal Tort Claims
Act.
The Memorandum Order of the U.S. District Court for the Eastern District of
Virginia appears at Balter v. United States, Case No. I:17cvll88 (E.D.Va., March 27.
2019), 2019 U.S. Dist. LEXIS 52544, 2019 WL 1394368, and at Appendix A to this
Petition. The Opinion of the U.S. Court of Appeals for the Fourth Circuit appears at
Balter v. United States, 788 Fed.Appx. 245 (4th Cir., Dec. 23, 2019), and at Appendix
B to this Petition. The Order of the United States Court of Appeals for the Fourth
Circuit denying rehearing appears at Balter v. United States, 2020 U.S. App. LEXIS
9922 (4th Cir., Mar. 23, 2020), and at Appendix C to this Petition.

JURISDICTION
This Court has jurisdiction to hear this Petition pursuant to 28 U.S.C. §
1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Federal Tort Claims Act, 28 U.S.C. Pt.VI Ch.171; Federal Rules of Civil
Procedure 8, 9, 11 and 12; and the Virginia Medical Malpractice Act, Va. Code Ann. §
8.01-20.1 (2013) are the principal statutory and rules provisions involved in this
Petition. All are set out in Appendix D.

2

STATEMENT OF THE CASE
Petitioner is a federal inmate held in in the custody of the Federal Bureau of
Prisons (“BOP”) at the federal prison complex at Petersburg, Virginia. On March 24,
2015, he fell in the shower on a piece of soap dropped by another inmate. Petitioner,
who is blind, was unable to see and avoid the hazard.
In June and July of 2015, Petitioner saw the FCC Petersburg medical staff
daily regarding severe pain in his lower back and right leg, and numbness in his right
foot. BOP healthcare employee prescribed Petitioner a series of drugs while
misdiagnosing his malady. Finally, in August, a physician employed by BOP noted
that Plaintiff-Appellant's pain and numbness “raise G the question of spinal
cord/lumbosacral compromise” and ordered a magnetic resonance imaging (MRI)
examination of the lumbar and sacral areas on “an urgent basis if not emergent
basis.” However, the BOP medical employees did not schedule an MRI.
BOP healthcare employees increased Petitioner’s daily dosage of morphine to
40 milligrams, but Petitioner remained in substantial pain. On August 9, 2015,
Petitioner was suffering severe pain, was vomiting, incontinent, confused, and
unresponsive to verbal stimuli. The BOP medical staff, suspecting that Petitioner had
overdosed on drugs, ordered that he be taken to an outside hospital, where physicians
ordered an immediate MRI. That imaging showed Petitioner was suffering from a
herniated disc and compression fracture of the spine, and was in acute renal
failure. Id.

3

On August 14, 2015, while still in the hospital, Plaintiff-Appellant underwent
spinal surgery. That surgery left his right leg and foot numb. Although BOP
healthcare employees ordered an additional MRI in December 2015, that diagnostic
imaging was not performed for another thirteen months. At that time, it revealed
that Petitioner was suffering from a pinched nerve, which was responsible for the
numbness.
Petitioner sued under the FTCA. Some aspects of his complaint were
dismissed on non-exhaustion grounds, but claims that survived alleged medical
malpractice by BOP employees by, inter alia, misdiagnosing his back condition and
failing to perform necessary diagnostic imaging.
The relevant portion of the VMMA provides that
at the time the plaintiff requests service of process upon a defendant, or
requests a defendant to accept service of process, shall be deemed a
certification that the plaintiff has obtained from an expert witness... a
written opinion signed by the expert witness that, based upon a
reasonable understanding of the facts, the defendant for whom service
of process has been requested deviated from the applicable standard of
care and the deviation was a proximate cause of the injuries claimed...
Va. Code Ann. § 8.01-20.1 (2013). Id.1 Petitioner did not obtain a necessary certifying
expert opinion at the time he requested service of process on a defendant as required
by the VMMA. Defendant United States argued in the trial court that Petitioner

i

If a plaintiff does not obtain a required certifying expert opinion “at the time the
plaintiff requested service of process on a defendant... the court shall impose sanctions according
to the provisions of § 8.01-271.1 and may dismiss the case with prejudice.”

4

failed to comply with the VMMA, and because the United States has waived its
sovereign immunity under the FTCA only to the extent that a private party “would
be liable to the claimant in accordance with the law of the place where the act or
omission occurred,” 28 U.S.C. § 1346(b)(1), the district court was without jurisdiction
to entertain the medical malpractice issues.
The district court agreed that “Virginia law governs the manner and
extent to which the United States may be liable as a defendant.
Accordingly, the Virginia Medical Malpractice Act (“VMMA”), Va. Code
§§ 8.01-581.1, et seq., provides the framework upon which to analyze
plaintiffs FTCA claims. See Starns v. United States, 923 F.2d 34 (4th
Cir. 1991) (applying VMMA in FTCA action involving federally operated
health care providers in Virginia).
As a threshold matter, the Virginia Medical Malpractice Act ("VMMA"),
Va. Code §§ 8.01-581.1, et seq., requires that a party alleging medical
malpractice obtain an expert certification of merit prior to serving
process upon defendant. Va. Code § 8.01-20.1. Significantly, the failure
to comply with this certification requirement is grounds for dismissal...
Plaintiff has informed the Court that he is in the process of seeking an
expert certification. However, submitting the required certification at
this point in this matter would not comply with the requirements of the
VMMA. “If the plaintiff did not obtain a necessary certifying expert
opinion at the time the plaintiff requested service of process on a
defendant as required under this section, the court shall impose
sanctions ... and may dismiss the case with prejudice.” Va. Code § 8.0120.1. Because plaintiff had not obtained an expert certification at the
time this matter was served on defendant, and defendant is only “liable
in the same manner and to the same extent as a private individual under
like circumstances,” this matter will be dismissed.
Balter u. United States, Case No. I:17cvll88 (E.D. Va. Mar. 27, 2019), 2019 WL
1394368, 2019 U.S. Dist. LEXIS 52544, at *11-15. Appendix A.
The Court of Appeals denied Petitioner’s appeal without discussion.
Appendix B. However, after that decision was handed down, the Seventh Circuit
issued a precedential decision in Young v. United States, 942 F.3d 349 (7th Cir. 2019),
5

reh’g denied, 2019 U.S. App. LEXIS 38746 (Dec. 30, 2019). Three days after Young,
the Sixth Circuit handed down a precedential decision of similar import in Gallivan
v. United States, 943 F.3d 291 (6th Cir., Nov. 7, 2019). The central holding in both of
these cases was that the Federal Rules of Civil Procedure, not state rules of procedure,
govern medical malpractice cases brought under the Federal Tort Claims Act.
Petitioner timely sought a panel rehearing, calling these contrary decisions to the
Court’s attention, but rehearing was denied without discussion. Appendix C.

REASONS FOR GRANTING THE WRIT
As Mel Brooks famously said, “It’s good to be the king.”2 Among the many
benefits that sovereignty confers is that the king cannot be sued in his own courts
without his consent. Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 142
(1984).
The FTCA was intended by Congress to grant such consent to sue the United
States, subject to limitations, “to render the Government liable in tort as a private
individual would be under like circumstances." Richards v. United States, 369 U.S. 1,
6 (1962); see also 28 U.S.C. § 2674. The Act confers jurisdiction on the federal district
courts over claims against the United States for injury “caused by the negligent or
wrongful act or omission of any employee of the Government while acting within the
scope of his office or employment, under circumstances where the United States, if a
private person, would be liable to the claimant in accordance with the law of the place

History of the World, Part I (20th Century Fox, 1981).

6

where the act or omission occurred.” Sosa v. Alvarez-Machain, 542 U.S. 692, 700
(2004); 28 U.S.C. § 1346(b)(1).
The FTCA was employed by plaintiffs over 3,000 times last fiscal year to seek
damage for torts allegedly committed by employees and agents of the federal
government.3 Medical malpractice claims - over 17,000 of which are filed against
public and private healthcare practitioners annually4 - account for a substantial
number of FTCA claims.
Under the FTCA, “the extent of the United States' liability... is generally
determined by reference to state law.” Molzof v. United States, 502 U.S. 301, 305
(1992); accord, Massey v. United States, 312 F.3d 272, 280 (7th Cir. 2002), Hannah v.
United States, 523 F.3d 597, 601 (5th Cir. 2008), and Liebsackv. United States, 731
F.3d 850, 855 (9th Cir. 2013). This makes a development in state malpractice law
over the past 20 years very relevant to FTCA plaintiffs around the nation.
Currently, 29 states have adopted a requirement that a plaintiff possess or file
some form of an affidavit of merit, sometimes referred to as a certificate of merit.5 In

3
United States Attorneys Annual Statistical Report - Fiscal Year 2019 (Dept, of
Justice), Table 5, found at https://www.iustice.gov/usao/page/file/1285951/download (last visited
August 17, 2020).
4
Nicholas Bazemore, Does Your Doctor Have Malpractice Claims? How To Find Out
(FORBES, April 19, 2016), found at https://www.forbes.com/sites/amino/2016/04/19/does-vour-doctorhave-malpractice-claims-how-to-find-out/#a5a4b7855a64 (last visited August 17, 2020).
5
Those statutes include Ariz. Rev. Stat. Ann. §12-2603; Colo. Rev. Stat. §13-20-602;
Conn. Gen. Stat. §52-190a; Del. Code Ann. tit. 18, §6853; Fla. Stat. §766.104; Ga. Code §9-11-9.1;
Hawaii Rev. Stat. §671-12.5; III. Rev. Stat. ch. 735, §5/2-622; Md. Courts & Judicial Proceedings Code
Ann. §3-2A-04; Mich. Comp. Laws §600.2912d; Minn. Stat. §145.682; Miss. Code Ann. §11-1-58; Mo.
Rev. Stat. §538.225; Nev. Rev. Stat. §41A.071; N.J. Rev. Stat. §2A:53A-27; N. Y. Civil Practice & Rules

7

general terms, “affidavits of merit are affidavits signed by an expert in the field,
attesting to the merit or merits of a claim. Depending on the state, affidavits of merit
may be required in medical malpractice claims, legal malpractice claims, and other
claims involving some sort of professional negligence. This may include cases against
architects, accountants, engineers, land surveyors, real estate agents, as well as
design professionals.”6
One such statutes is the VMMA, which requires that the plaintiff possess such
an affidavit of merit at the time his or her complaint is served on defendants, and
that the affidavit be provided to the defendants upon their request. Va. Code Ann. §
8.01-20.1 (2013). Id.1 In Petitioner’s case, the lack of such an affidavit caused
dismissal with prejudice of his complaint.8
Recently, two circuits held that similar requirements that medical malpractice
plaintiffs obtain affidavits of merit in FTCA actions were in conflict with the Federal
Rules of Civil Procedure, and thus, did not apply in FTCA actions. Young, supra;
Gallivan, supra. These decisions conflict with the 4th Circuit’s decision in this action

Law §3012-a; N.D. Cent. Code §28-01-46; Ohio R. Civ. P. 10; Okla. Stat. tit. 12, §19.1; Pa. R. Civ. P.
1042.3; S.C. Code Ann. §15-36-100; Tenn. Code Ann. §29-26-122; Tex. Civil Practices & Remedies Code
Ann. §74.351; Utah Code Ann. §78B-3-423; Vt. Stat. Ann. tit. 12, §1042; Va. Code §8.01-20.1; Wash.
Rev. Code §7.70.150; W. Va. Code §55-7B-6; Wyo. Stat. §9-2-151.
6
Christine Funk, Affidavits of Merit in Medical Malpractice Cases (EXPERT INSTITUTE,
June 23, 2020), found at https://www.expertinstitute.com/resources/insights/affidavits-merit-medicalmalpractice-cases/# ftnl (last visited August 17, 2020).
7
If a plaintiff does not obtain a required certifying expert opinion “at the time the
plaintiff requested service of process on a defendant... the court shall impose sanctions according to
the provisions of § 8.01-271.1 and may dismiss the case with prejudice.”
8
As noted supra, other counts of Petitioner’s complaint were dismissed for non­
exhaustion reasons. Those are not relevant to the matter being raised in this Petition for Writ of
Certiorari.

8

that Petitioner’s complaint should be dismissed for lack of jurisdiction because he
lacked the affidavit of merit required by the VMMA. Both decisions join a Ninth
Circuit decision, which describes the Nevada “affidavit of merit” requirement as a
procedural rule that does not apply in FTCA cases because “[t]he FTCA contains no
affidavit requirement.” Kornberg v. United States, 692 Fed.Appx 468, 469 (9th Cir.
2017).

While the VMMA applies to Petitioner’s claim, it does so only to the extent
that it does not conflict with the Federal Rules of Civil Procedure. Some of the VMMA
establishes Virginia substantive law, which undoubtedly applies to the instant suit.
But where the VMMA mandates the application of procedural rules, and those rules
conflict with the Federal Rules of Civil Procedure, the Federal Rules will govern.
In Young, supra, the 7th Circuit held that Illinois statute 735 ILCS § 5/2-622(a)
- which requires a physician’s affidavit and report to be attached to a malpractice
complaint unless an exception applies - may not be relied upon to cause dismissal of
a malpractice complaint filed pursuant to the FTCA that lacks such an affidavit of
merit. The 7th Circuit observed that “[m]any cases hold that federal, not state, rules
apply to procedural matters — such as what ought to be attached to pleadings — in
all federal suits, whether they arise under federal or state law.” Young, supra at 942
F.3d 351, quoting Cooke v. Jackson National Life Ins. Co., 919 F.3d 1024, 1027 (7th
Cir. 2019) and citing Shady Grove Orthopedic Assoc., P.A. v. Allstate Ins. Co., 559
U.S. 393, 398 (2010); Burlington Northern R.R. Co. v. Woods, 480 U.S. 1 (1987);

9

Walker v. Arrnco Steel Corp., 446 U.S. 740 (1980) and Mayer v. Gary Partners & Co.,
29 F.3d 330 (7th Cir. 1994).
Young quite properly held that Rule 8 of the Federal Rules of Civil Procedure
specifies what a complaint must contain. The Rule
does not require attachments. One can initiate a contract case in federal
court without attaching the contract, an insurance case without attaching
the policy, a securities case without attaching the registration statement,
and a tort case without attaching an expert's report. Supporting documents
come later. Section 5/2-622 applies in federal court to the extent that it is a
rule of substance; but to the extent that it is a rule of procedure it gives way
to Rule 8 and other doctrines that determine how litigation proceeds in a
federal tribunal.
Young, supra.9
Three days after the 7th Circuit ruled in Young, the 6th Circuit held in Gallivan
that under F.R.Civ.P. Rule 8(a), a complaint need include no more than (1) a short
and plain jurisdictional statement, (2) a short and plain statement of the claim, and
(3) an explanation of the relief sought. Gallivan, supra at 943 F.3d 293. “By listing
these elements,” the Court ruled, “Rule 8 implicitly ‘excludes other requirements that
must be satisfied for a complaint to state a claim for relief.” Id., citing Carbone v.
Cable News Network, Inc., 910 F.3d 1345, 1352 (11th Cir. 2018).
The inmate plaintiff in Gallivan brought suit for medical malpractice under
the FTCA. Ohio Civ.R. 10(D)(2) requires that

9
The Young court, however, did hold that a plaintiffs lack of an affidavit of merit could
be addressed by the defendant later in a motion for summary decision. Id. at 942 F.3d 351-52. The
petitioner in that case has filed a petition for writ of certiorari in this case, which is pending. Case No.
19-8587.

10

(a)

Except as provided in division (D)(2)(b) of this rule, a complaint that
contains a medical claim, dental claim, optometric claim, or chiropractic
claim, as defined in section 2305.113 of the Revised Code, shall include
one or more affidavits of merit relative to each defendant named in the
complaint for whom expert testimony is necessary to establish liability.
Affidavits of merit shall be provided by an expert witness pursuant to
Rules 601(D) and 702 of the Ohio Rules of Evidence. Affidavits of merit
shah include all of the following:
A statement that the affiant has reviewed all medical
(i)
records reasonably available to the plaintiff concerning
the allegations contained in the complaint;
A statement that the affiant is familiar with the
(ii)
apphcable standard of care;
(iii) The opinion of the affiant that the standard of care was
breached by one or more of the defendants to the action
and that the breach caused injury to the plaintiff.

Because the Gallivan plaintiffs complaint lacked the Civ.R. 10(D)(2) affidavit of
merit, the district court dismissed the case on 28 U.S.C. § 1915 review.
The 6th Circuit reversed:
The first question we must ask is whether the Federal Rules of Civil
Procedure answer the question in dispute: does someone need an affidavit
of merit to state a claim for medical negligence? See Shady Grove
Orthopedic Assocs., P.A. v. Allstate Ins. Co. [supra]. In other words, do the
Federal Rules answer “the same question” as the state rule? If the Federal
Rules answer that question, we then must ask whether the Federal Rules
are valid under the Constitution and the Rules Enabling Act. If the answers
to both those questions are yes, then our work is done. We apply the Federal
Rules, not Ohio Rule 10(D)(2).
For the first question, the Federal Rules provide a clear answer: no
affidavit is required to state a claim for medical negligence. Under Rule
8(a), which provides the general rules of pleadings, a complaint must
include (1) a short and plain jurisdictional statement, (2) a short and plain
statement of the claim, and (3) an explanation of the relief sought. Fed. R.
Civ. P. 8(a). That’s it. By listing these elements, Rule 8 imphcitly “excludes
other requirements that must be satisfied for a complaint to state a claim
for relief.” Carbone v. Cable News Network, Inc., [supra] (citing Antonin
Scalia & Bryan A. Garner, Reading Law: The Interpretation of Legal Texts
§ 10, at 107 (2012)); cf. Shady Grove, 559 U.S. at 401 (“Rule 23 permits all
class actions that meet its requirements, and a State cannot limit that
11

permission by structuring one part of its statute to track Rule 23 and
enacting another part that imposes additional requirements”). Rule 8 does
not require litigants to file any affidavits.
Nor does Rule 12. A complaint survives a motion to dismiss under
Rule 12(b)(6) by simply alleging facts “sufficient to state a claim to relief
that is plausible on its face.” Majestic Bldg. Maint., Inc. v. Huntington
Bancshares Inc., 864 F.3d 455, 458 (6th Cir. 2017) (citing Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 Q (2007)). Rule 12 does not demand
“evidentiary support” — in an affidavit or any other form — for a claim to
be plausible. Klocke v. Watson, 936 F.3d 240, 246 (5th Cir. 2019). Even
without an affidavit, a complaint can move beyond the pleading stage and
into discovery.
And Rule 9 confirms the point by specifying the few situations when
heightened pleading is required — for instance, when a party alleges fraud
or mistake. Fed. R. Civ. P. 9(b). Since none of those heightened
requirements apply here, Rule 8’s more liberal pleading standards govern.
See Leatherman v. Tarrant Cty. Narcotics Intelligence & Coordination Unit,
507 U.S. 163, 168 Q (1993). To impose a heightened pleading standard in
Gallivan's case would upset the careful balance struck by the Federal Rules.
In short, the Federal Rules answer the question in dispute:
Gallivan did not have to file an affidavit with his complaint to state a claim.
Gallivan, supra at 943 F.3d 293-94.
The Third, Fourth, Eighth, and Tenth Circuits are at odds with Gallivan, and
apply state “affidavit of merit” statutes to FTCA medical negligence claims governed
by state substantive law.
In Chamberlain v. Giampapa, 210 F.3d 154 (3d Cir. 2000), the Third Circuit
applied a state “affidavit of merit” rule to an FTCA action because the state and
federal rules “can exist side by side.” Id. at 210 F.3d at 160. See also Liggon-Redding
v. Estate of Sugar man, 659 F.3d 258, 264-65 (3d Cir. 2011) (applied Chamberlain).
Gallivan rejected this reasoning as inconsistent with Shady Grove, observing that
“the relevant inquiry isn’t whether the federal and state rules can co- exist but

12

whether the Federal Rules “answer[ ] the question in dispute.” Gallivan, supra at 943
F.3d 296, quoting Shady Grove, supra at 559 U.S. 398. The Fourth Circuit in
Littlepaige v. United States, 528 Fed.Appx. 289, 292-93 (4th Cir. 2013) held without
discussion that compliance with state law “is required to sustain a medical
malpractice action under the FTCA in North Carolina.”
The Eighth Circuit held in Keating v. Smith, 492 Fed.Appx 707, 708 (8th Cir.
2012) that an FTCA malpractice action had to comply with a state law “affidavit of
merit” requirement, relying on Mackovich v. United States, 630 F.3d 1134, 1135 (8th
Cir. 2011) (per curiam). The Tenth Circuit in Trierweiler v. Croxton & Trench Holding
Corp., 90 F.3d 1523 (10th Cir. 1996) employed the same “outcome determinative” test
that did not survive Shady Grove, applying the state certificate requirement so that
it did not “create a rule of law likely to produce substantially different results in state
and federal court.” Id. at 90 F.3d 1540.
Section 8.01-581.20(a) of the VMMA - which dictates what a plaintiff in a
malpractice action must have in hand at the time the complaint is filed - is
indistinguishable from the state procedural requirements which Gallivan and Young
have held must yield to the Federal Rules of Civil Procedure. At the same time,
In Petitioner’s case, the District Court ruled that because Petitioner “had not
obtained an expert certification at the time this matter was served on defendant, and
defendant is only ‘liable in the same manner and to the same extent as a private
individual under like circumstances,’ this matter will be dismissed.” Balter v. United
States, supra at 2019 U.S. Dist. LEXIS 52544, *14-15. The 4th Circuit “affirm[ed] for

13

the reasons stated by the district court.” Balter v. United States, supra at 2019 U.S.
App. LEXIS 38261, *1. That decision improperly conflates procedural rules and
substantive liability in a manner properly separated in Young and Gallivan.
While the FTCA borrows state law to provide the rules of decision in tort
actions against the United States. 28 U.S.C. § 1346(b)(1), the statute “expressly
makes the Federal Rules of Civil Procedure applicable’” in those suits. United States
v. Yellow Cab Co., 340 U.S. 543, 553 & n.9 (1951).

The 4th Circuit’s approach

effectively displaces Congress's power “to prescribe housekeeping rules for federal
courts.” Hanna v. Plumer, 380 U.S. 460, 473 (1965). As Gallivan noted supra at 943
F.3d 295: “That some of those federal rules may conflict with their state counterparts
matters little. Our judicial systems are not meant to be identical. Id. Besides, it
doesn't make sense for federal courts to have one system of procedural rules in
diversity cases and another in FTCA cases - at least absent clear instructions to the
contrary.”
Petitioner’s District Court was right that the FTCA provides that the United
States may be held liable only “in the same manner and to the same extent as a
private individual.” 28 U.S.C. § 2674. But use of the Federal Rules of Civil Procedure
does nothing to change the scope of that liability. “With or without the Federal Rules,
the elements for proving liability remain the same in a FTCA action because state
law always supplies the rules of decision. If the Federal Rules apply, district courts
may dismiss fewer complaints as procedurally defective. But that doesn't change the
‘manner’ or ‘extent’ of the government's liability.” Gallivan, supra.

14

The analysis applied in Shady Grove, supra, is properly employed to determine
whether a given Federal Rule of Civil Procedure governs an issue in an FTCA action.
In Shady Grove, this Court considered whether a federal rule governed an issue in a
diversity action in the face of contrary state law. Despite the fractured nature of the
decision, the majority in Shady Grove agreed that a court must first determine
whether the federal rule “answers the question in dispute.” Id. at 559 U.S. 398
(majority opinion). If it does, the court must next decide whether the rule complies
with the Rules Enabling Act, 28 U.S.C. § 2072. Shady Grove, supra at 559 U.S. 398.
A valid federal rule governs in the face of contrary state law. Id.
While Shady Grove arose in the diversity context, nothing about the two-step
framework is specific to diversity actions. The first question in the analysis —
whether the federal rule answers the question in dispute — “involves a
straightforward exercise in statutory interpretation.” Stewart Organization, Inc. v.
Ricoh Corp., 487 U.S. 22, 26 (1988). The second question - whether the federal rule
is valid - involves application of the Rules Enabling Act, 28 U.S.C. § 2072. Neither
step is peculiar to diversity jurisdiction, suggesting that the identical analysis applies
in a case under the FTCA.
Thus, Congress has not conditioned waiver of sovereign immunity under the
FTCA on a plaintiffs compliance with state law affidavit-of-merit requirements such
as those set out in the VMMA. Indeed, neither the VMMA nor any similar state
affidavit-of-merit statutes existed at the time Congress passed the FTCA. The VMMA
was introduced simultaneously as HB 2659 and SB 1173 on January 12, 2005, and

15

signed into law on March 23, 2005. Similar measures in other states were not more
than nine or 10 years older than that. Jeffrey A. Parness & Amy Leonetti, Expert
Opinion Pleading: Any Merit to Special Certificates of Merit?, 1997 BYUL. Rev. 537,
538-39 (traces origin of such measures to 1996 presidential debates, and legislation
that followed in Congress and various states).10
The second question under Shady Grove is whether the VMMA establishes a
pleading requirement that collides with the Federal Rules. Clearly, it does. To begin
with, this Court “has often rejected the Government’s calls to cabin the FTCA on the
ground that it waives sovereign immunity — even in the years immediately after the
Act's passage, even as it was construing other waivers of immunity narrowly:
As compared to other waivers of immunity (prominently including the Tucker
Act), the FTCA treats the United States more like a commoner than like the
Crown. The FTCA’s jurisdictional provision states that courts may hear suits
“under circumstances where the United States, if a private person, would be
liable to the claimant.” 28 U.S.C. § 1346(b). And when defining substantive
liability for torts, the Act reiterates that the United States is accountable “in
the same manner and to the same extent as a private individual.” §2674. In
keeping with those provisions, this Court has often rejected the Government’s
calls to cabin the FTCA on the ground that it waives sovereign immunity —
and indeed, the Court did so in the years immediately after the Act’s passage,
even as it was construing other waivers of immunity narrowly.
United States v. Kwai Fun Wong, 575 U.S. 402, 419 (2015), citing United States v.
Aetna Casualty & Surety Co., 338 U.S. 366, 383 (1949); and Indian Towing Co. v.
United States, 350 U.S. 61, 65 (1955).

Found at http ://commons. lib. niu.edu/bitstream/handle/10843/17216/Parness%201997%
20BYU%20L%20Rev%20537%201997-Hein%20PDFA.pdf?seauence=l&isAllowed=v (last visited
August 17, 2020).
10

16

Rule 8 of the Federal Rules of Civil Procedure “governs the pleading standard
in ‘all civil actions and proceedings in the United States district courts’.” Ashcroft v.
Iqbal, 556 U.S. 662, 684 (2009) (quoting F.R.Civ.P. 1). It provides that a complaint
must contain “a short and plain statement of the claim showing that the pleader is
entitled to relief.” F.R.Civ.P.

8(a)(2). Under that modest notice-pleading

requirement, a plaintiff need only plead “sufficient factual matter, accepted as true,
to state a ‘claim to relief that is plausible on its face.” Iqbal, supra at 556 U.S. 678.
Rule 9, by contrast, requires parties to allege fraud and mistake “with
particularity’ and to “specifically stateQ” items of special damage. F.R.Civ.P. 9(b),
(g). Because Rule 9 imposes a heightened pleading standard in limited situations,
courts presume that no such standard applies in other contexts. Leatherman, supra
at 507 U.S. 168 (“[H]eightened pleading standard[s] are impossible to square with
the liberal system of‘notice pleading that Rule 8 embodies’”).
As for Rule 12, a complaint that pleads facts sufficient to satisfy the applicable
pleading standard is not subject to dismissal under Rule 12(b)(6). See Bell Atlantic
Corp., supra at 550 U.S. 570 (A pleading need allege “only enough facts to state a
claim to re fief that is plausible on its face”).
Thus, Rules 8, 9, and 12 provide an answer to the question raised here: no
affidavit of merit is required for an FTCA complaint alleging medical malpractice to
survive a motion to dismiss, no matter what state law may provide. For that reason,
there is no basis for a district court finding that the Government has not waived
sovereign immunity to permit suit. Indeed, there is no basis at all for the notion that

17

waiver of sovereign immunity depends on the plaintiffs compliance with state
procedural requirements.
VMMA § 8.01-20.1 imposes a heightened pleading requirement on parties
bringing medical claims. By its plain text, the statute requires a plaintiff to possess
additional proof of the elements of his or her medical-malpractice claim — in the form
of an expert affidavit — and to provide that document upon demand to the
defendants. It is not enough that the plaintiff obtain an affidavit when the defendants
demand it (which itself would be a pleading requirement rather than substantive
law). Rather, the statute requires that plaintiff possess the affidavit prior to service
of process, thus making it part of the complaint process divorced from the merits of
plaintiffs claim. Thus, § 8.01-20.1.1 conflicts with F.R.Civ.P. 8, 9, and 12.
The 11th Circuit's thorough opinion in Carbone, supra, supports the notion that
§ 8.01-20.1.1 imposes a heightened pleading standard at odds with Rules 8, 9, and 12.
In Carbone, the issue was whether a state anti-SLAPP law that imposed a heightened
pleading standard could be applied in federal court to strike a civil action. Id. at 910
F.3d 1349. Applying Shady Grove, the 11th Circuit held that it could not. The court
concluded that Rules 8 and 12 create “an affirmative entitlement” to avoid dismissal
at the pleading stage if the plausibility pleading standard is satisfied. Id. at 910 F.3d
1850-52; accord Abbas v. Foreign Policy Group, LLC, 783 F.3d 1328, 1383-1386
(D.C.Cir. 2015). Similarly, the heightened pleading standard imposed by § 8.01-20.1.1
conflicts with Rules 8, 9, and 12.

18

It matters not that § 8.01-20.1.1 does not mandate that the complaint have the
affidavit attached to it when filed. The affidavit must exist by the time the complaint
is served. This is true regardless of whether plaintiff has pled all of the elements that
make out a malpractice case under state law, and regardless of whether in response
to a motion for summary judgment on the merits, the plaintiff could marshal expert
testimony that supported his cause of action. Thus, compliance with § 8.01-20.1.1 is
independent of the plaintiff making a case that establishes the substantive elements
of medical malpractice. Section 8.01-20.1. l’s affidavit of merit requirement is nothing
more than a procedural rule, a heightened pleading standard.
Section 8.01-20.1.1 also conflicts with F.R.Civ.P. 11. Rule 11(a) states in
relevant part that “a pleading need not be verified or accompanied by an affidavit’
“[ujnless a rule or statute specifically states otherwise.” F.R.Civ.P. 11(a). The
exception for any “rule or statute” that “specifically states otherwise” refers only to
federal law. Royalty Network, Inc. v. Harris, 756 F.3d 1351, 1360 (11th Cir. 2014);
Farzana K. v. Indiana Department of Education, 473 F.3d 703, 705 (7th Cir. 2007);
Follenfant v. Rogers, 359 F.2d 30, 32 n.2 (5th Cir. 1966).
Despite the fact that the expert affidavit required by § 8.01-20.1.1 is not filed
with the complaint, there can be no doubt that the affidavit constitutes a pleading
requirement. Where a plaintiff alleging medical malpractice must possess such an
k

affidavit prior to service of his or her complaint in order to survive a motion to dismiss
for failure to state a claim, the fact that the affidavit only need be produced when a
defendant demands it rather than being filed with the complaint is a distinction

19

without a difference. In both cases, the complaint is subject to dismissal upon the
defendant’s demand that it be dismissed. In both cases, the affidavit must verify the
material allegations of the complaint. The affidavit requirements of § 8.01-20.1.1 fly
in the face of F.R.Civ.P. 11, placing the statute and the rule in conflict.
Because under Shady Grove, § 8.01-20.1.1 conflicts with F.R.Civ.P. 8, 9, 11,
and 12, the issue becomes whether those rules are valid under the Rules Enabling
Act.
In Shady Grove, supra, a four-Justice plurality viewed the analysis under the
Rules Enabling Act as controlled by Sibbach v. Wilson, 312 U.S. 1 (1941). Shady
Grove, supra at 559 U.S. 406-410. Under Sibbach, a court asks only whether the rule
“really regulate[s] procedure,” with the “substantive nature of [the state] law” at issue
making no difference. Shady Grove, supra at 559 U.S. 407, 409; see also Hanna, supra
at 380 U.S. 464, citing Sibbach, supra at 312 U.S. 14; Bilenky v. Ryobi Technologies
Inc., Case No. 2:13-cv-345 (E.D.Va. Jan. 29, 2015), 2015 WL 403979, 2015 U.S.Dist.
LEXIS 10455, at *2 , citing Sibbach, supra. That is the least doctrinally far-reaching
approach because it merely follows established precedent and thus “offers the least
change to the law.” United States v. Cundiff, 559 F.3d 200, 209 (6th Cir. 2009). Justice
Stevens's opinion, by contrast, distinguished Sibbach on the grounds that it did not
involve the question whether the relevant federal rule interfered with a state
substantive right. Shady Grove, supra at 559 U.S. 427-428. But as the plurality
explained, the Court in Hanna, supra - which did face that question - “unmistakably
expressed the same understanding’ as did the Court in Sibbach. Shady Grove, supra

20

at 559 U.S. 409-10; see also Hanna, supra at 380 U.S. 469-71. To give Justice
Stevens's opinion binding status would thus require this Court to implicitly overrule
Hanna and Sibbach.
Federal Rules 8, 9, 11, and 12 are valid under the Sibbach approach because
they “really regulate[] procedure.” Shady Grove, supra at 559 U.S. 407 (plurality).
Indeed, the Supreme Court has “rejected every statutory challenge to a [federal [r]ule
that has come before [it]” under that standard. Id. The VMMA governs matters of
pleading, which relate to “the manner and the means by which a right to recover... is
enforced. Mississippi Publ. Co. v. Murphree, 326 U.S. 438, 446 (1946); see also Shady
Grove, supra at 559 U.S. 404 (holding that “[p]leading standards [are] addressed to
procedure”); Carbone, supra at 910 F.3d 1357 (holding that Rules 8 and 12 regulate
procedure); Abbas, supra at 783 F.3d 1337 (same as to Rule 12; Royalty Network,
supra at 756 F.3d 1386 {Rule 11).
In Justice Stevens's concurring view, “the bar for finding an Enabling Act
problem is a high one.” Shady Grove, supra at 559 U.S. 438. Section 8.01-20.1.1 falls
well short of that bar. That statute is procedural, neither expanding nor contracting
the showing that must be made to establish medical malpractice. Indeed, the fact that
trial court has the option whether to dismiss the action or apply some other lesser
sanction strongly lobbies for the notion that, unlike the binary nature of a substantive
showing (either the plaintiff makes the showing and prevails, or does not make the
showing and fails), the affidavit-of-merit portion is merely a procedural rule that has
no bearing on whether the plaintiff can prevail on his or her substantive claim.

21

Conclusion: The 4th Circuit’s engrafting of the VMMA’s affidavit-of-merit
standard onto the FTCA is contrary to the law of other circuits, and is contrary to the
FTCA and this Court’s precedent. To resolve the conflict among the circuits and to
draw a clear line between procedural requirements governing FTCA suits and those
which state legislature may elect to impose upon actions in state courts, this Court
should grant certiorari in this matter, issue the writ to the 4th Circuit, and set this
matter for briefing.
WHEREFORE, this Petition should be granted. The statements of fact made
herein are true, under penalty of perjury.

Executed:

----------*

August 18, 2020
Richard Balter
Reg. No. 17432-050
FCI Petersburg Medium
P.O. Box 1000
Petersburg, VA 23804

22

